           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

 THE SOCIAL SECURITY ADMINISTRATION’S
       TIME ALLOCATION SYSTEM


       April 2011   A-14-10-20122




  EVALUATION
    REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      April 18, 2011                                                               Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Time Allocation System (A-14-10-20122)


           OBJECTIVE
           The objectives of this evaluation were to determine (1) the events that led the Social
           Security Administration (SSA) to terminate the Time Allocation System (TAS) project
           and (2) whether SSA effectively managed the project.

           BACKGROUND
           On January 31, 2001, 1 SSA created a workgroup to develop and implement a unified
           system for measuring and distributing work hours among organizations and workloads
           that would be accurate, reliable, and cost-effective. The workgroup proposed TAS to
           replace the District Office Work Sampling (DOWS)2 used in the Work Measurement
           System (WMS) for field office and teleservice center workloads. In SSA, the WMS
           provides employee workload information to component-level management. WMS
           provides management with the following information.

                 1. What employees are working on (workload/function).
                 2. How much work completed (volume).
                 3. How much time employees spend working (workpower).

           In our report, Cost Analysis System Background Report and Viability Assessment, 3 we
           raised questions about the data submitted through DOWS to the Cost Analysis System

           1
               See Appendix B for a chronological sequence of significant TAS events.
           2
            DOWS is used to develop the amount of time expended on measurable and non-measurable work.
           DOWS data is collected via a random sampling technique and provides the relative share of time spent
           on each activity.
           3
            SSA OIG, Cost Analysis System Background Report and Viability Assessment, (A-15-10-20149),
           April 2011.
Page 2 - The Commissioner


(CAS). 4 For example, DOWS involves point-in-time work sampling techniques that
were in place before the implementation of CAS in 1976. Further, this work sampling
assumes that the level of effort, that is the total amount of time spent on each workload,
relates to the number of responses per sample rather than actual time worked on each
workload. Since CAS relies on DOWS to allocate costs to the Agency’s trust, general,
and other funds, it is imperative that whichever WMS (DOWS or TAS) is used to
measure cost, the underlying methodology used to capture cost data must be valid.

TAS used a set of Agency-defined business rules to determine the amount of time
employees spent on various workloads. In 2004, SSA contracted with DecisionPath
Consulting 5 to provide management and engineering expertise to assist the Agency in
developing and deploying TAS. DecisionPath Consulting was one of three contractors6
engaged to consult on the TAS project.

In July 2009, SSA’s Office of Quality Performance (OQP) issued a Time
Allocation System (TAS) Evaluation Report. OQP stated its “…review identified
many instances of differences between the observed activities and TAS
reporting. TAS developers and subject matter experts should review these
findings to determine which business rules to address, and which are operating
as planned. We understand that some of the issues discussed in this report may
have already been addressed by the experts.”7 To begin addressing OQP’s
findings, the Agency implemented maintenance releases to support the
necessary changes to TAS.

In September 2009, SSA terminated the TAS project and reallocated resources to other
projects. In 2006, SSA estimated accrued TAS costs for Fiscal Years (FY) 2004 and
2005 and future TAS costs through 2008 to be approximately $20 million. As of
March 10, 2010, the total cost for all three contractors was $24.6 million. Further, SSA
expended an additional $11.3 million on employee payroll, hardware/software, and
travel costs. When SSA terminated the TAS project, the total project cost was
$35.8 million. 8 See Appendix C for a detailed breakdown of the TAS project cost.


4
 CAS carries out essential cost accounting functions for SSA. Some of these functions are (1)
determining actual administrative costs chargeable to trust fund activities, general fund programs, and
certain reimbursable programs and (2) developing a budget base of actual data on workloads, workyears,
and costs (both direct and total workyears and costs) for use in projecting future resource requirements.
(This function has been partially supplanted by alternate methods.)
5
 General Services Administration (GSA) Schedule Contract Number GS-35F-0300J and two SSA
Blanket Purchase Agreements (BPA), SS00-06-40018 and SS00-04-40019.
6
    The other two contractors were Lockheed Martin and Ab Initio.
7
    SSA OQP, Time Allocation System (TAS) Evaluation Report, p.7, July 2009.
8
 The Chief Information Officer approved additional funds beyond the original estimate. These funds were
used to expand the scope of the TAS initiative and support subsequent TAS releases.
Page 3 - The Commissioner


To obtain a better understanding of SSA’s information technology (IT) systems
development lifecycle (SDLC) and its development of TAS, we reviewed relevant
Federal laws, regulations, guidelines, standards, and Agency policies and procedures.
We also reviewed internal SSA documents and interviewed Agency personnel
knowledgeable of the TAS project. We conducted our evaluation in accordance with the
Council of the Inspectors General on Integrity and Efficiency’s Quality Standards for
Inspections. 9 For more background information, scope and methodology, see
Appendix D.

RESULTS OF REVIEW
We found several events that led to SSA’s decision to terminate TAS. Some of these
events raised questions about SSA’s management of the TAS project, given that SSA
terminated the project without proper analysis to determine which WMS (DOWS or
TAS) more accurately accounted for workload time measurements. We believe if SSA
had conducted sufficient project planning before initiating the TAS project, most, if not
all, of the events identified in this report could have been resolved before expending
approximately $36 million of Agency resources.

We have organized our report based on the SDLC used by SSA. The SDLC describes
all of the business and software development activities and deliverables required for a
software development project. The life cycle divides projects into four phases--Planning
and Analysis, Construction, Post Release, and Maintenance. SDLC’s goal is to
establish a discipline and framework for developing software.

Described below are the specific events that led to TAS’ termination and where these
events occurred in SSA’s SDLC for TAS.

Planning and Analysis Phase
   • Insufficient Planning and Analysis Leading to the Termination of TAS
   • TAS Benefits and Costs Were Not Identified Timely

Construction Phase
  • Insufficient Testing Due to Storage Constraints

Post Release Phase
   • No Post Implementation Review (PIR) after a system was in operation for 6
      months, or after termination of TAS, to determine reasons for the project’s failure.




9
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11. See, CIGIE, Quality Standards for Inspection and Evaluation, January
2011.
Page 4 - The Commissioner


Maintenance Phase
   • Inability to maintain TAS cost-effectively

PHASE 1—Planning and Analysis

According to Office of Management and Budget (OMB) Circular No. A-130, “Agencies
must plan in an integrated manner for managing information throughout its life cycle.
Agencies will . . . [c]onsider, at each stage of the information life cycle, the effects of
decisions and actions on other stages of the life cycle, particularly those concerning
information dissemination….” 10 Planning entails preparing, developing, or acquiring the
information used to design the investment; assessing the benefits, risks, and risk-
adjusted life cycle costs of alternative solutions; and establishing realistic costs,
schedules, and performance goals for the selected alternative, before either proceeding
to full acquisition of the capital project (investment) or useful segment or terminating the
investment. 11

SSA’s Planning and Analysis Phase is the initial stage in the project life cycle during
which the project team identifies and documents the system owner/users' goals and
requirements, determines the project’s feasibility, and develops the project plan. We
have summarized two conditions that occurred in SSA’s Planning and Analysis Phase
that impacted TAS and possibly its termination. We summarize these events below.

We believe if SSA had conducted sufficient project planning before initiating the TAS
project, most, if not all, of the events identified in this section of the report could have
been resolved before expending approximately $36 million of Agency resources.

Insufficient Planning and Analysis Leading to the Termination of TAS

SSA management concluded, based on data analysis and on-site observation studies,
that the TAS approach was not successful in meeting all of the Agency’s management,
accounting, and budgeting needs for reliable time measurement. SSA terminated the
TAS project and continued to use the DOWS system without determining which of the
work measurement systems more accurately accounted for and allocated costs to
workloads.

Between March 2 and 13, 2009, OQP observed the activities of 10 field office and
teleservice center employees for an entire pay period. OQP assigned two employees to
watch each field office and teleservice employee and record, in an observation log, all
activities the employee addressed during each day. Observers also documented
whether the employee was on or off the system. OQP then loaded the TAS user day
logs and observation logs, for March 2 through 13, 2009 into a database for analysis.

10
     OMB Circular No. A-130, Management of Federal Information Resources, Section 8a(1).
11
   OMB Circular No. A-11, Planning, Budgeting, Acquisition, and Management of Capital Assets, Part 7,
p. 5 of Section 300, November 2009.
Page 5 - The Commissioner


In its 2009 study, 12 OQP reported that there were large differences between the time
reported by observers and the time reported by TAS for DOWS workload categories
100 through 115 (see Appendix E for a list of DOWS workload categories). The large
variances resulted from TAS’ inability to identify specific activities not performed on a
system. DOWS13 required idle time and time an employee is logged off the system to
be allocated to a specific workload, for example, lunch was DOWS category 100, and
new staff training was DOWS category 101. TAS did not account for specific activities
not performed on a system. TAS recorded idle time and time an employee is logged off
the system as “unmeasured time.” To address this issue, SSA created a TAS
workgroup to address allocating the unmeasured time to specific workload activities.

The OQP study conveyed that experts had already addressed some of the issues
discussed in the report. In addition, the study suggested TAS developers and subject
matter experts review the reported time differences between the OQP-observed
activities and TAS to determine which business rules needed to be addressed and
which were operating as planned.

In FY 2010, SSA planned to run a parallel study of TAS and DOWS to explore and
explain differences. However, SSA decided not to expend any additional funds,
cancelled the parallel study, and terminated the TAS project. 14

SSA was aware that variances would exist between TAS and DOWS time allocations.
While the Agency attempted to validate the TAS time allocations to the OQP
observations, the Agency did not try to validate the OQP time allocation observations
data back to the DOWS time allocation data to determine which system (TAS or DOWS)
was more accurate.

We interviewed staff from DecisionPath Consulting to obtain their perspective on some
of the challenges associated with implementing the TAS project. According to
DecisionPath Consulting management,

         . . . industrial engineering analysis made it clear that time allocation at SSA would
         be complex and was likely to yield different time allocations than the DOWS system
         had provided, which would require explanation to OMB [Office of Management and
         Budget]. The Associate Commissioner for the Office of Budget within what was
         then DCFAM [Deputy Commissioner for Finance, Assessment and Management]
         was well aware of the changes that would be required to leverage TAS data and
         approved of the TAS initiative. 15


12
     SSA OQP, Time Allocation System (TAS) Evaluation Report, p.6, July 2009.
13
  DOWS is the current manual sampling process for time measurement system of each workload
category. SSA regards DOWS as statistically valid at the end of a FY.
14
  SSA, E-mail, from Linda McMahon, Deputy Commissioner for Operations to Michael Astrue,
Commissioner of Social Security (September 21, 2009).
15
     SSA OIG, interview with DecisionPath Consulting, May 2010.
Page 6 - The Commissioner


When we asked DecisionPath its view on why SSA terminated the TAS project,
DecisionPath stated,

           Given resource constraints associated with the agency’s budget processes, it was
           far easier to stick with the old and proven DOWS system despite its well-
           documented shortcomings, than to: (a) have to rework SSA’s complicated
           spreadsheet-driven processes for budget formulation; and (b) have to explain the
           differences between DOWS-based time allocation and TAS-based allocations to
           OMB and potentially to Congress. 16

In response to DecisionPath’s statements, SSA’s Office of Budget (OB) stated the use
of TAS data would not require reworking SSA’s budget formulation process. The TAS
architecture supported a direct data feed to the CAS. 17 Additionally, OB stated,

           . . . OB did not at any time insist that there be consistency between DOWS and
           TAS. [OB] did however, recommend that the agency validate TAS. Multiple, costly
           time studies demonstrated that TAS could not be shown to be accurate on its own
           merits. TAS accuracy studies were not designed to compare TAS to DOWS, but
           instead were used to test whether TAS measurements accurately reflected the
           activities/actions that observers reported in detailed logs. The studies ultimately
           gave very little to no confidence that TAS accurately measured the work activities
           that it had been designed to measure. Without a study verifying the accuracy of
           TAS time measurements, we believe it would not have been in the best interest of
           SSA to convert to TAS.

The known deficiencies in DOWS and the challenges of implementing TAS presented a
unique set of pros and cons for each system. SSA did not compare the two systems to
determine which more accurately reflected Agency workloads before making the
decision to discontinue the use of TAS.

Based on the information from DecisionPath and the Agency, it is clear that the
differences in complex workloads as compared to DOWS complicated the TAS project.
Given the intricate relationship between budget formulation, workload management and
cost allocation, TAS, or any similar system, would need to be validated for accuracy
before the system could be fully integrated into these processes. Nevertheless, SSA
continues to use DOWS without knowing which time measurement system is more
accurate. Therefore, we recommend SSA take the necessary steps to validate the
accuracy of the current work measurement system or future replacements.

TAS Benefits and Costs Were Not Identified Timely

According to OMB Circular No. A-94, “Benefit-cost analysis (BCA) is recommended as
the technique to use in a formal economic analysis of government programs or

16
     Id.
17
     CAS carries out essential cost accounting functions for SSA.
Page 7 - The Commissioner


projects.” 18 SSA did not identify TAS costs and benefits timely. The development of
TAS began in 2003; however, a BCA was not prepared until 2006. A BCA is a
systematic approach to evaluating the worth of a proposed project or initiative relative to
the costs of achieving it. The analysis is used to examine and compare the costs,
benefits, and uncertainties of each alternative to determine the most cost-beneficial
means of meeting the objectives. The benefits could include cost avoidance savings.

The Agency identified and documented its complex business rules during the User
Requirements step in the Planning and Analysis Phase. Some business rules, such as
policies dictated by law, are identified and documented early in the development
process. Other business rules are identified and documented when specific user tasks
are performed, for example, calculations of various processing cycles (total time to
close cases, etc.).

The Agency’s business rules are the laws, regulations, standards, and procedures that
define or constrain some aspect of SSA’s business. A business rule can contain

      •   fact (true statement),
      •   constraint (action restriction),
      •   action enabler (trigger activity),
      •   inference (new fact), or
      •   computation (algorithm).

SSA did not anticipate the time and effort required to identify, document, and maintain
its business rules (both those required by law and the workload allocation rules the
Agency chose to implement). 19 Although the business rules are documented in the
Planning and Analysis phase, the cost of maintaining these rules (which is a part of any
cost-benefit analysis) should have been documented as well (see Maintenance phase
for more information on the maintenance costs). When laws, regulations, policies, or
procedures changed, SSA’s business rules, systems, and applications changed. SSA
needed to revisit any previously documented business rules for TAS to ensure
completeness.

Prior to TAS’ release into production, SSA did not prepare a BCA. Therefore, SSA
underestimated the cost, time, and effort required to manage changes in its business
rules that it established to allocate cost in the TAS. 20 Moreover, OMB Circular
No. A-130 states, an Agency should “. . . prepare and update a BCA for each

18
  OMB Circular No. A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal Programs,
Section 5, October 1992.
19
     The Agency was unable to provide TAS maintenance costs.
20
  Production system is a fully documented, tested, and functional system delivered to the user
community.
Page 8 - The Commissioner


information system throughout its life cycle. A BCA will provide a level of detail
proportionate to the size of the investment, rely on systematic measures of mission
performance, and be consistent with the methodology described in OMB Circular
No. A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs.”21,22 According to SSA’s BCA, the goal of TAS was to develop and
implement an integrated TAS that allocates work-time information consistently, for all
components and workload activities, that reduces or eliminates manual time reporting
systems, and that provides accurate data at the lowest level possible. As a result of
insufficient planning and analysis, the Agency cannot demonstrate it achieved this goal.
We recommend SSA prepare a BCA before developing future complex IT projects. In
addition, we recommend SSA perform more comprehensive integrated strategic
planning and analysis before starting the Construction phase of future complex IT
projects.

PHASE 2—Construction Phase

This phase is a period in the project/product life cycle where a product is created from
the requirements and design specifications.

SSA’s inability to test and implement business rule changes affected the TAS project in
its early stages. When a business rule was updated, the Agency could not test and
implement the change within a reasonable amount of time because of storage
constraints. Data storage capacity was not sufficient to store all raw data. Therefore, in
the early stages of the TAS development, it was not possible to rework results for any
extended period to test the impact of business rule changes. In later stages of the TAS
project, SSA established a testing environment with enough storage to allow for
reworking transactions. However, had the Agency been able to rework results sooner,
the TAS workgroup would have known earlier that the data captured were insufficient.
Now that capacity is no longer an issue, the Agency should ensure that testing is done
before migrating IT projects into production.

PHASE 3—Post Release Phase

This segment of the life cycle occurs immediately after the software application is
migrated into a production environment. 23

OMB Circular No. A-130 requires that Federal agencies “…[c]onduct post-
implementation reviews of information systems and information resources management
processes to validate estimated benefits and costs, and document effective

21
     OMB Circular No. A-130, Management of Federal Information Resources, Section 8b(1)(b)(vi).
22
  The goal of OMB Circular No. A-94, Guidelines and Discount Rates for Benefit-Cost Analysis of Federal
Programs, is to promote efficient resource allocation through well-informed decisionmaking by the
Government. It provides general guidance for conducting BCA-cost and cost-effectiveness analysis.
23
     See Footnote 20.
Page 9 - The Commissioner


management practices for broader use….”24 In addition, OMB recommended that
agencies consider various factors when conducting a post-implementation review,
including strategic and mission impact and effectiveness; customer and user
satisfaction; investment performance; and evaluations of accuracy, timeliness, and
quality of project information. 25

OMB further states,

         The Post Implementation Review (PIR) usually occurs either after a system has
         been in operation for about six months or immediately following investment
         termination. The review should provide a baseline to decide whether to continue the
         system without adjustment, to modify the system to improve performance or, if
         necessary, to consider alternatives to the implemented system. As a minimum, a
         PIR team should evaluate stakeholder and customer/user satisfaction with the end
         product, mission/program impact, and technical capability, as well as provide
         decision-makers with lessons learned so they can improve investment decision-
         making processes. 26

Further, Federal agencies are required to effectively manage their capital assets to
ensure scarce resources are spent wisely. SSA has a process called Post Release
Review (PRR), 27 for validating a project’s technical requirements, functionality, and
customer satisfaction. SSA’s PRR is not the same as conducting a PIR. Based on prior
OIG recommendations, 28 the Agency agreed to implement PIRs in its policies and
procedures for managing IT projects. One of the first steps SSA took was to develop a
PIR Framework. In June 2010, we issued a report that stated SSA’s PIR Framework
needed to be enhanced to include conducting PIRs for terminated projects.29 Based on
the circumstances surrounding the TAS project, we believe this is a prime example of a
terminated project that should have undergone a PIR. A PIR evaluates how effectively
an IT project meets Agency goals and identifies reasons for project failures. Further,

24
     OMB Circular No. A-130, Management of Federal Information Resources, Section 8b(1)(d)(i).
25
  OMB, Capital Programming Guide, Version 2.0, Supplement to OMB Circular No. A-11, Part 7:
Planning, Budgeting, and Acquisition of Capital Assets, pp. 58 and 59, June 2006.
26
  OMB, Capital Programming Guide, Version 2.0, Supplement to OMB Circular No. A-11, Part 7:
Planning, Budgeting, and Acquisition of Capital Assets, p. 60, June 2006.
27
   PRR is a planned review conducted with the customer, designated representatives, and other
appropriate stakeholders after system implementation (typically 90 days after the system has been
implemented to allow a period of real-time operation). The data collected from the PRR provide
information regarding a project’s success delivering what was promised in the Project Scope Agreement,
and is used to assess customer satisfaction.
28
  SSA OIG, Social Security Administration’s Management of Information Technology Projects
(A-14-07-17099), July 26, 2007.
29
  SSA OIG, Quick Response Evaluation, The Social Security Administration’s Post-Implementation
Review (A-14-10-30105), June 22, 2010.
Page 10 - The Commissioner


PIRs are important to ensure continuous improvement in SSA’s IT investment decisions
and management processes and help avoid repeating mistakes in future IT projects.

PIRs can be conducted at various intervals/releases of IT projects. For example, when
the Agency migrated various releases of TAS into production, it could have conducted a
PIR to determine the current releases’ success or termination. Had SSA performed a
PIR, the Agency may have identified issues or acquired information that could have
resulted in a more timely decision to proceed or terminate the TAS project without
expending additional resources. We recommend SSA conduct a PIR after a system
has been in operation for 6 months and for all terminated projects to determine reasons
for the project’s failure.

PHASE 4—Maintenance Phase

Maintenance pertains to the activities required to keep a software and/or hardware
system operational after implementation. Maintenance activities include continuing
operational status, correcting faults, improving performance, troubleshooting for users,
or adapting to a changed environment. SSA had difficulty maintaining TAS. The
Agency identified approximately 30,000 business rules for TAS. When technology or a
business process changed, a TAS business rule needed modification. SSA
management stated that extensive time and monetary commitments were necessary to
maintain TAS. 30 In addition, the Agency would need additional staff dedicated to
maintaining TAS.

Further, SSA staff required specialized knowledge and skills to maintain TAS. The
retention and hiring of these individuals had cost implications. According to SSA, TAS
would require both Systems and Operations support. From a Systems perspective, the
Agency would have to stay current on all data sources. For example, if a system added
or changed screens, the Agency would have to capture the changes. From an
Operations perspective, the Agency would require subject matter experts to help define
the correct business rules and support user acceptance testing. Therefore, because of
concerns about TAS’ labor-intensive maintenance, the Agency was unable to justify the
costs associated with TAS and discontinued efforts to develop it.




30
  We requested specific cost information for TAS maintenance, and, to date, the Agency has not
provided this information.
Page 11 - The Commissioner


TECHNOLOGICAL INNOVATIONS ACQUIRED THROUGH THE
DEVELOPMENT OF TAS

Although SSA terminated the TAS project, the Agency stated that it was the catalyst for
many innovations in SSA. The Agency continues to use processes developed as a part
of TAS in its current IT projects. The primary advancement was the development,
integration, and implementation of an Enterprise Extract, Transform, and Load (ETL)
Architecture. 31 The introduction of ETL into SSA’s Business Intelligence Architecture 32
enabled many Agency components to benefit from managing and processing massive
amounts of data. Additionally, the lessons learned from the development of TAS
provided insight into the complex business processes supported throughout the Agency.
This micro-view of the Agency’s business processes provided data analysts a
perspective that could be used in future projects.

CONCLUSION AND RECOMMENDATIONS
Although SSA considered TAS a new and innovative approach to time measurement,
the Agency could not demonstrate that it achieved its goal to provide accurate, timely,
and relevant information for workload management, while expending $36 million on the
TAS initiative. The Agency decided to terminate the TAS project without expending
additional resources to (1) resolve the time variances between TAS and the OQP
observations, (2) update and maintain TAS when business rules changed, and
(3) determine which system (TAS or DOWS) more accurately reflected workloads.
According to SSA’s contractor, DecisionPath, it was easier for SSA to abandon the TAS
project and keep using DOWS as its time measurement system. We believe if SSA had
conducted sufficient project planning before initiating the TAS project, most, if not all, of
the events identified in this report could have been resolved before expending
approximately $36 million of Agency resources. Given the intricate relationship
between budget formulation, workload management and cost allocation, TAS, DOWS or
any similar system, should be validated for accuracy to ensure the Agency is using data
that most accurately reflect the Agency’s workloads.

Based on the information obtained during this review, we have identified opportunities
for SSA to improve its systems implementation process. From an overall perspective,
we recommend that:

1. SSA take the necessary steps to validate the accuracy of the current work
   measurement system or future replacements.


31
  According to the statement of work for Ab Initio’s ETL tool, SUMS/MCAS required an ETL solution as
an essential and required technology for integrating data from multiple heterogeneous sources into
designated Operational Data Stores and data warehousing systems.
32
   Business Intelligence Architecture is a set of concepts and methods to improve business
decisionmaking by using centralized fact-based support systems. Business Intelligence produces
information that is trusted, timely, relevant, easy to use, and in context.
Page 12 - The Commissioner


With respect to the management of TAS or any future IT projects, we recommend the
Agency:

2. Perform comprehensive integrated strategic planning and analysis before starting
   the Construction phase of complex IT projects.
3. Prepare a BCA before developing complex IT projects.
4. Conduct sufficient testing before migrating IT projects into production.
5. Perform a PIR after a system has been in operation for 6 months and for all
   terminated projects to determine reasons for the project’s termination.

AGENCY COMMENTS AND OIG RESPONSE
SSA generally agreed with our recommendations. For Recommendations 1, 4, and 5,
the Agency agreed. For Recommendations 2 and 3, the Agency stated that our
recommended action is already in practice. See Appendix F for the full text of SSA’s
comments.

For Recommendations 2 and 3, we will continue to monitor the Agency’s process for
developing complex IT projects. We also received technical comments from the
Agency. We incorporated these comments, where appropriate.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Time Allocation System Chronology of Events
APPENDIX C – Total Cost of Time Allocation System
APPENDIX D – Background, Scope, and Methodology
APPENDIX E – District Office Work Sampling Workload Categories
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
 BCA       Benefit-Cost Analysis
 BPA       Blanket Purchase Agreement
 CAS       Cost Analysis System
 CICS      Customer Information Control System
 DCBFM     Deputy Commissioner for Budget, Finance and Management
 DCFAM     Deputy Commissioner for Finance, Assessment and Management
 DCO       Deputy Commissioner for Operations
 DCS       Deputy Commissioner for Systems
 DOWS      District Office Work Sampling
 ETL       Extract, Transform, Load
 FY        Fiscal Year
 GSA       General Services Administration
 IT        Information Technology
 MI        Management Information
 OB        Office of Budget
 OMB       Office of Management and Budget
 OQP       Office of Quality Performance
 PIR       Post Implementation Review
 PRIDE     Project Resource Guide
 PRR       Post Release Review
 SDLC      Systems Development Lifecycle
 SSA       Social Security Administration
 SUMS/     Social Security Unified Measurement System/Managerial Cost
 MCAS      Accountability System
 TAS       Time Allocation System
 WMS       Work Measurement System
                                                                          Appendix B

Time Allocation System Chronology of
Significant Events
Date                 Event
1998                 Discussions began about the need for a Time Allocation System (TAS).
January 2001         TAS workgroup created.
March 2003           TAS vision and scope completed.
January 2004         Prototypes presented.
March 2004           Business requirements and time measurement alternatives completed.
May 2005             Systems analysis and design completed.
                     Release 1.0 - Milestone release to capture workpower for the field office
January 2006
                     components.
                     Release 1.5 - Milestone release to capture workpower for the teleservice
October 2006
                     center and Immediate Claims Taking Unit.
                     Release 2.0 - Milestone release to enhance business rules with the help
June 2007
                     of subject matter experts.
July – August 2007   Maintenance Releases 1-2.
                     TAS Rollout Release - Add regional and field office managers to the
August 2007          Business Intelligence Gateway (Automated Group Management
                     Combined Release).
                     Release 2.1 - Milestone release to provide 508 functionality
August 2007
                     (Maintenance Release 4).
September 2007       Maintenance Release 5.
September 2007       Release 2.2 - Milestone release to capture Training Workpower data.
November 2007        TAS Rollout - Denver/Seattle, 10 percent Offices.
November 2007        Maintenance Release 6.
December 2007        TAS Rollout - Chicago/Kansas City, 10 percent Offices.
December 2007 –
                     Maintenance Releases 7-8.
January 2008
January 2008         TAS National Rollout - All Field and Regional Offices.
February 2008 –      Maintenance Releases 9-24 (including miscellaneous release on
October 2009         February 1, 2008).
                     Office of Quality Performance issues Time Allocation System Evaluation
July 2009
                     Report.
                     Deputy Commissioner for Operations sends an email to SSA’s
September 2009
                     Commissioner notifying him of the decision to terminate TAS.
December 2009        Complete TAS Shutdown.
                                                                                Appendix C

Total Cost of Time Allocation System
The Time Allocation System (TAS) project costs comprise contractor costs, Social
Security Administration employee payroll costs, software/hardware costs, and travel-
related cost. The table below details TAS costs as of March 2010.


    Description                                                        Cost             Total Cost
    Contractor Costs
             DecisionPath Consulting                          $22,780,628
             Lockheed Martin                                     1,426,521
             Ab Initio Consulting                                  381,634
             Total Contract Dollars Spent                                             $24,588,783
    SSA Employee Costs
         Deputy Commissioner for Systems
                                                               $3,573,905
         (DCS) personnel
         Non-DCS personnel                                      2,102,288 1
             Total SSA Employee Cost                                                    $5,676,193
    Procurement Costs
             Software                                          $4,636,678
             Hardware                                              792,072
             Total Procurement Cost                                                     $5,428,750
    Travel Costs                                                                         $152,150 2
          Total Cost of TAS (as of March 2010)                                       $35,845,876 3




1
    We were unable to verify the accuracy of this amount with the Agency.
2
    Id.
3
 This amount is the cost that has been attributed to TAS as of March 2010. The Agency did not provide
estimated costs to support continuous and ongoing time allocation architecture.
                                                                                       Appendix D

Background, Scope, and Methodology
The Social Security Administration’s Systems Development Lifecycle
Office of Management and Budget (OMB) Circular No. A-130, Management of Federal
Information Resources, defines the information system life cycle as the stages through
which an information system passes, typically characterized as initiation, development,
operation, and termination. 36

SSA’s systems development lifecycle (SDLC) methodology is documented in its Project
Resource Guide (PRIDE). PRIDE applies to all systems projects that influence the
Agency’s core business functions or supporting information technology (IT)
infrastructure, including the ability to develop, deliver, and maintain SSA’s enterprise
software or data. 37 Project teams must follow the appropriate SSA-approved life cycle
model. 38 The Agency’s SDLC generally follows the structure defined by OMB; SSA
used this SDLC for TAS.

Scope and Methodology
To accomplish our objectives, we:

      •   Reviewed the Clinger-Cohen Act of 1996 39 as well as OMB Circular No. A-11,
          Preparation, Submission, and Execution of the Budget, and A-130, Management
          of Federal Information Resources.
      •   Reviewed applicable SSA policies and procedures.
      •   Reviewed the General Services Administration Schedule Contract Number GS-
          35F-0300J and two SSA Blanket Purchase Agreements (BPA) for DecisionPath
          Consulting, SS00-06-40018 and SS00-04-40019.
      •   Reviewed the SSA BPA with Lockheed Martin (SS00-05-60011) and the BPA
          with Ab Initio (SS00-05-40031).
      •   Reviewed SSA’s Contracting Officer’s Technical Representative status reports
          and supporting documentation.
      •   Interviewed SSA personnel from the Offices of the Deputy Commissioners of
          Systems (DCS), Operations (DCO), and Budget, Finance and Management
          (DCBFM).

36
     OMB Circular No. A-130, Management of Federal Information Resources, Section 6r.
37
     SSA, Office of Systems Project Management Directive, p. 1, para. 2 April 2010.
38
     SSA, Office of Systems Project Management Directive, p. 2, para. 6A April 2010.
39
     Pub. L. No. 104-106, Division E, Sec. 5113(b)(2)(A).

                                                     D-1
     •   Interviewed DecisionPath Consulting staff.

We performed our evaluation between March and June 2010 in Baltimore, Maryland.
The entities reviewed were the Offices of the DCS, DCO, and DCBFM. We conducted
our evaluation in accordance with the Council of the Inspectors General on Integrity and
Efficiency’s Quality Standards for Inspections. 40




40
  In January 2009, the President’s Council on Integrity and Efficiency was superseded by the Council of
the Inspectors General on Integrity and Efficiency, Inspector General Reform Act of 2008, Pub. L. No.
110-409 § 7, 5 U.S.C. App. 3 § 11.

                                                  D-2
                                                                     Appendix E

District Office Work Sampling Workload
Categories
Workload
Categories         Titles
 (1)         Retirement Claims
 (2)         RSI Nondisabled Dependent Claims
 (3)         RSDHI Prisoner Actions
 (4)         Disability Insurance Claims
 (5)         DI Nondisabled Dependent Claims
 (6)         RSDI Rep Payee Accountings
 (7)         SSI Rep Payee Accountings
 (8)         SSI Aged Applications
 (9)         SSI Prisoner Actions
(10)         SSI Disability/Blindness Applications
(11)         SSI Redeterminations -- Limited Issues
(12)         SSI Medical CDR
(13)         RSDI Earnings Enforcement
(15)         RSDI Change of Payee
(16)         RSDI Medical CDR
(17)         RSDI Work CDR
(18)         Health Insurance Workloads
(19)         Supplementary Medical Insurance Workloads
(20)         Assistance Requests
(21)         RSDHI Reconsideration/Personal Conferences
(22)         SSI Hearings and Appeals
(23)         Earnings Disagreements/Earnings Discrepancies
(24)         SSI Change of Payee
(25)         SSI Appeals Effectuations
(26)         SSI Overpayment Decisions/Collections
(27)         RSDI Overpayment Decisions/Collections
(28)         SSI Redeterminations (Low, Middle and High Error Profile)
(29)         SSI Reconsiderations
(30)         Fraud
(31)         RSDHI Class Actions
(32)         SSI Class Actions
(33)         SSI Windfall Offset
(36)         RSDHI Hearings and Appeals Requests
(39)         Medicare Part D Subsidy Applications
(40)         Medicare Part D SCE Pre-Applications
(41)         Medicare Part D SCE Applications
(42)         Medicare Part D Subsidy Appeals
(43)         Medicare Part D Subsidy Redeterminations
(44)         Concurrent Disability Development
(45)         Medicare Part B IRMAA Events

                                          E-1
 (46)   Medicare Part B IRMAA Appeals
 (47)   Special Disability Workload
 (49)   Medicare Reform Inquiries
 (51)   SSI Status Changes
 (52)   RSDI School Program
 (53)   Food Stamp Applications/Recertifications
 (55)   RSDI Immediate Payment
 (56)   SSI Immediate Payment
 (57)   RSDI Payments and Checks
 (59)   Benefit Verification Services
 (60)   RSDHI Status Changes
 (61)   RSDI Rep Payee Misuse
 (62)   SSI Rep Payee Misuse
 (63)   SSI Payments and Checks
 (70)   SSI PASS
 (71)   Title II DSI FEDRO Appeals
 (72)   Title XVI DSI FEDRO Appeals
 (73)   Title XVI Decision Review Board Reviews
 (74)   Title II Decision Review Board Reviews
 (79)   Social Security Numbers
 (80)   General Inquiries
(100)   Lunch
(101)   New Staff Training
(102)   Ongoing/Special Program Training
(103)   Information Services
(104)   Administration and Management
(105)   Travel
(106)   Personal Time
(107)   Reception
(108)   Unclassified Clerical
(109)   Leave
(110)   Earnings Record Maintenance
(111)   Quality Control and Security
(112)   Labor-Management Relations
(113)   Non-Tour Hours
(114)   Impact of Building Operation and Lease Management
(115)   Systems Support




                                   E-2
                  Appendix F

Agency Comments
                                      SOCIAL SECURITY
MEMORANDUM


Date:   March 21, 2011                                                          Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “The Social Security Administration’s Time
         Allocation System” (A-14-10-20122)--INFORMATION


        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Chris Molander at (410) 965-7401.

        Attachment




                                                       F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S TIME ALLOCATION SYSTEM”
(A-14-10-20122)

We offer the following:

GENERAL COMMENTS

While we terminated the Time Allocation System (TAS), we have a sound history of
successfully implementing our Information Technology (IT) projects. We utilize a rigorous life-
cycle process for every project and employ many of the methods you describe in your
recommendations. TAS was a creative, innovative effort to improve a decades-old process. We
knew there would be risks, but the risks were acceptable considering the potential for substantial
benefits. We did not halt the project because of insufficient strategic planning and analysis, nor a
lack of testing. In fact, our analysis led us to conclude it was unwise to continue expending
extraordinary amounts of resources on the project. We performed extensive studies and decided
that TAS would not provide the reliable time measurement data needed to meet our management,
accounting, and budgeting needs.

RESPONSES TO RECOMMENDATIONS

Recommendation 1

Take the necessary steps to validate the accuracy of the current work measurement system or
future replacements.

Response

We agree. During the TAS effort, we identified some issues with the accuracy of our work
sampling. We are addressing those issues and assessing our data collection methods. For
example, we are considering systems options to support our sampling techniques.

Recommendation 2

Perform comprehensive integrated strategic planning and analysis before starting the
Construction phase of complex IT projects.

Response

This is already our practice. We did extensive planning and analysis before starting the
construction phase of the TAS project. We have large, complex programmatic workloads, and
what we were attempting was bold and visionary. We conducted meticulous research,
interviewed agency executives, considered strategic options, and held many briefings for agency
executives and managers.

We consider this recommendation closed for tracking purposes.



                                                F-2
Recommendation 3

Prepare a benefit-cost analysis (BCA) before developing complex IT projects.

Response

This is already our practice. As you note, we did not prepare a BCA for TAS until 2006. We
delayed the BCA because we were acquiring information to estimate the costs of future TAS
releases. Prior to 2006, we had developed some cost estimates, but we did not conduct a formal
BCA. Nevertheless, from the start, we did have a good sense of the magnitude of the project.

We consider this recommendation closed for tracking purposes.

Recommendation 4

Conduct sufficient testing before migrating IT projects into production.

Response

We agree.

We did extensive testing for the TAS project. Unfortunately, the volume of data we needed to
simulate a production environment in the testing, validation, and integration environments was
not available in the early stages of the project.

Recommendation 5

Perform a Post Implementation Review (PIR) after a system has been in operation for 6 months
and for all terminated projects to determine reasons for the project’s termination.

Response

We agree. We are currently refining our PIR guidance.




                                               F-3
                                                                     Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts
   Brian Karpe, Director, Information Technology Audit Division

   Mary Ellen Moyer, Audit Manager

Acknowledgments
In addition to those named above:

   Charron Allen, Auditor

   Cheryl Dailey, Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-14-10-20122.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
